September 16, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Via Electronic Filing
Re:

World Programming Limited v. SAS Institute, Inc., No. 20-304

Pressly M. Millen
Direct Dial: 919-755-2135
Direct Fax: 919-755-6067
E-mail: Press.Millen@wbd-us.com

Dear Mr. Harris:
I write to request a 60-day extension of time for Respondent SAS Institute, Inc. to file a brief in
opposition to the petition for writ of certiorari that was filed on September 4, 2020 and placed on
the docket September 9, 2020 as No. 20-304. That brief in opposition is currently due October 9,
2020. The requested 60-day extension would make it due December 8, 2020.
Respondent moves for this extension because of difficulties relating to COVID-19 that are
exacerbated by competing professional obligations. Because of the public health emergency,
counsel with drafting responsibility for this brief in opposition are working from home while caring
for children who would otherwise be attending school. Counsel are balancing these added
responsibilities with significant competing professional obligations, including several federal court
briefing deadlines and hearings before October 9, 2020.
Petitioner World Programming Limited has stated through counsel that it does not oppose this
extension request.
Thank you for your attention to this matter.
Respectfully submitted,
Womble Bond Dickinson (US) LLP

/s/ Pressly M. Millen
Pressly M. Millen
Counsel for Respondent SAS Institute, Inc.

cc:

Jeffrey A. Lamken, Counsel for Petitioner World Programming Limited

Womble Bond Dickinson (US) LLP is a member of Womble Bond Dickinson (International) Limited, which consists of independent and autonomous law
firms providing services in the US, the UK, and elsewhere around the world. Each Womble Bond Dickinson entity is a separate legal entity and is not
responsible for the acts or omissions of, nor can bind or obligate, another Womble Bond Dickinson entity. Womble Bond Dickinson (International)
Limited does not practice law. Please see www.womblebonddickinson.com/us/legal-notice for further details.

